Department of Homeland Security
   Ofﬁce of Inspector General



     Immigration and Customs Enforcement's 

       Tracking and Transfers of Detainees 





OIG-09-41                              March 2009
                                                             Office of Inspector General
                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      March 17, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of Immigration and Customs
Enforcement’s Office of Detention and Removal Operations. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................4


     Detainee Tracking Has Improved, but More Can Be Done...........................................4 


     Transfer Notification Procedures Should Be Improved.................................................6 


     Medical Screenings and Physical Examinations Are Not Always Timely....................9 


Recommendations..............................................................................................................12


Management Comments and OIG Analysis ......................................................................12 


Appendices
     Appendix A:                 Purpose, Scope, and Methodology.................................................17
     Appendix B:                 Management Comments to the Draft Report .................................20
     Appendix C:                 Data Entry into the Deportable Alien Control System ..................26
     Appendix D:                 Detainee Transfer Notification Form.............................................27
     Appendix E:                 Major Contributors to this Report..................................................28
     Appendix F:                 Report Distribution ........................................................................29

Abbreviations
     DHS                         Department of Homeland Security
     ENFORCE                     Enforcement Case Tracking System
     FY                          Fiscal Year
     ICE                         Immigration and Customs Enforcement
     IGSA                        Intergovernmental Service Agreement
     OIG                         Office of Inspector General




               Immigration and Customs Enforcement’s Tracking and Transfers of Detainees
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    We conducted an audit of United States Immigration and Customs
                    Enforcement’s detainee tracking and transfer processes. Our
                    objectives were to determine to what extent the agency has: (1)
                    improved its ability to track and monitor detainees; (2) properly
                    notified detainees of transfers; and (3) provided detainees with
                    timely initial medical screenings and physical examinations.

                    Immigration and Customs Enforcement’s detainee tracking efforts
                    have improved since our last report, dated November 2006 (OIG­
                    07-08), with accuracy rates increasing from 90% to 94%.
                    Immigration and Customs Enforcement correctly accounted for
                    433 (94%) of the 459 detainees we sampled.

                    At the time of transfer, Immigration and Customs Enforcement
                    does not always provide detainees the name of the facility to which
                    they are being sent. The Detainee Transfer Notification form was
                    not properly completed for 143 of the 144 transfers we tested.
                    Agency staff interviewed generally considered completing and
                    providing copies of the transfer forms to detainees a low priority.
                    Also the staff interviewed did not know that they were responsible
                    for informing detainees’ legal representatives of transfers.

                    Medical staff at detention facilities did not always conduct
                    physical examinations within 14 days, as required by the National
                    Detention Standard for Medical Care; detainees received timely
                    physical examinations in 248 (80%) of the 312 tested exams.
                    Noncompliance can result in a higher incidence of untreated or
                    undiagnosed illnesses and promote the spread of infectious
                    diseases.

                    The Immigration and Customs Enforcement concurred with four
                    recommendations and concurred in part with three
                    recommendations. We have incorporated Immigration and
                    Customs Enforcement comments into the body of this report, and
                    made changes where appropriate. These comments are included in
                    their entirety as Appendix B.




       Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                        Page 1
Background
                  In March 2003, U.S. Immigration and Customs Enforcement (ICE)
                  became part of the Department of Homeland Security (DHS).
                  ICE’s mission is to prevent acts of terrorism by targeting the
                  people, money, and materials that support terrorist and criminal
                  activities. ICE’s responsibilities are to:

                         �	 Provide adequate and appropriate custody management
                            to support the processing of removable aliens;
                         �	 Facilitate the processing of removable aliens through
                            the immigration court; and
                         �	 Enforce removal of aliens from the United States.

                  ICE Detention and Removal Office is also responsible for the
                  following key elements:

                         �	 Identify and remove all high-risk illegal alien fugitives
                            and absconders;
                         �	 Ensure that those aliens who have already been
                            identified as criminals are expeditiously removed; and
                         �	 Develop and maintain a robust removal program with
                            the capacity to remove all final-order cases.

                  In FY 2007, ICE detained more than 311,000 aliens, with an
                  average daily population of more than 30,000 and an average
                  length of stay of 37 days. In FY 2008, ICE had an estimated
                  32,000 funded bed spaces for detainees. In FY 2007, ICE removed
                  276,912 detainees from the United States and transferred 261,910
                  detainees from one detention facility to another.

                  ICE operates seven detention facilities, known as Service
                  Processing Centers, in Aquadilla, Puerto Rico; Batavia, New York;
                  El Centro, California; El Paso, Texas; Florence, Arizona; Miami,
                  Florida; and Los Fresno, Texas. ICE augments its Service
                  Processing Centers with seven Contract Detention Facilities in
                  Aurora, Colorado; Houston, Texas; Laredo, Texas; Seattle,
                  Washington; Elizabeth, New Jersey; Queens, New York; and San
                  Diego, California. ICE also uses state and local jails on a fixed
                  price basis through Intergovernmental Service Agreements
                  (IGSAs).

                  ICE National Detention Standards are designed to identify a
                  minimum level of acceptable custody and conditions of
                  confinement. The primary purpose of these standards is to provide

     Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                      Page 2
______________________________________________________________________________________

                      uniform guidance regarding the detention, safety, and well-being
                      of detainees in custody. These standards include guidance on a
                      variety of topics, including detainee transfers and medical care.
                      Only facilities housing detainees for more than 72 hours are
                      required to meet these standards. ICE inspects these facilities
                      annually to ensure compliance.

                      Service Processing Centers and Contract Detention Facilities use
                      commissioned corps officers in the Public Health Service to
                      deliver onsite medical care. Local jails rely mainly on other onsite
                      clinicians, such as contractors or staff employed by county public
                      health departments.

                      ICE facilities use a detainee classification system to ensure that,
                      detainees are housed at appropriate levels and physically separated
                      from each other, based on risk. There are three classification
                      levels generally distinguished by criminal convictions, ranging
                      from Level 1 (lowest risk) to Level 3 (highest risk). The
                      classification system informs detention facility personnel of the
                      level of security and attention required for each detainee.

                      According to our November 2006 report, Review of U.S.
                      Immigration and Customs Enforcement’s Detainee Tracking
                      Process (OIG-07-08), the detainee tracking system was up-to-date
                      90% of the time because information was not recorded in the
                      Deportable Alien Control System within the first 5 days of
                      detainment as required. In addition, ICE made incorrect contractor
                      payments. We recommended that ICE: (1) issue formal
                      instructions to field offices requiring timely Deportable Alien
                      Control System entries and proper supervisory review; (2) perform
                      daily or periodic reconciliations and train staff responsible for
                      verifying the accuracy of Deportable Alien Control System
                      records; and (3) obtain a reimbursement of $7,955 for the net
                      overpayments to a detention facility. The three recommendations
                      have been fully addressed.

                      In response to our OIG-07-08 audit report, ICE issued a policy
                      memorandum on February 1, 2007, requiring that the detention
                      screen in the Deportable Alien Control System be updated within
                      24 hours of detaining or transferring an alien. (See Appendix C for
                      a copy of this memorandum.) Subsequently, on September 30,
                      2007, ICE instituted the ENFORCE tracking system, the Alien
                      Detention Module component, to replace Deportable Alien Control
                      System, which ultimately provided a more efficient way to
                      electronically process and track detainees in and out of ICE
                      detention facilities. ENFORCE automated many of the

         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                          Page 3
______________________________________________________________________________________

                          administrative control functions associated with the arrest,
                          detention, and deportation of illegal aliens. In addition, on August
                          11, 2008, ICE instituted the ENFORCE Alien Removal Module
                          component, a case management system, to replace the Deportable
                          Alien Control System and improve the efficiency of the detention
                          and removal process. ICE immigration enforcement agents,
                          deportation officers, and detention removal assistants have the
                          responsibility to update ENFORCE when a detainee is taken into
                          custody, transferred, or removed.1 ICE did not update its February
                          2007 memorandum to reflect institution of the new tracking
                          system.

Results of Audit
        Detainee Tracking Has Improved, but More Can Be Done
                          ICE detainee tracking has improved since the November 2006
                          audit, but additional procedures are needed to ensure full
                          compliance with ICE’s recording requirements. Despite institution
                          of the new tracking system, ICE staff interviewed at the five
                          detention facilities we visited did not always update ENFORCE
                          properly or timely. See Appendix A for details of the five
                          detention facilities selected for review.

                          As summarized in Table 1, ICE correctly accounted for 433 (94%)
                          of the 459 detainees we sampled in ENFORCE, which is an
                          improvement over the 90% accuracy rate resulting from our 2006
                          testing.




1
  ICE procedures require ENFORCE to be updated within 24 hours of detainee book-ins, transfers, or
removals, to provide an accurate snapshot of the detainee population.


           Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                                Page 4
     ______________________________________________________________________________________


                        Table 1 – ENFORCE Tracking Errors and Classification of Detainees
                               ADP in             Correct in                            Classification
     Detention Facility        FY 08*  Sample     ENFORCE        Errors       N/A     Level 1    Level 2   Level 3
                                               Size
Suffolk County House of            245          55             49        6       0        6         0        0
Corrections (IGSA)
Boston, MA
Krome Service Processing           646         100             94        6       0        1         1        4
Center
Miami, FL
Eloy Detention Facility           1,468        104             98        6       2        4         0        0
(IGSA)
Eloy, AZ
Pinal County Jail (IGSA)           449         100             96        4       0        2         2        0
Florence, AZ
Denver Contract Detention          407         100             96        4       0        0         4        0
Facility
Aurora, CO
       Totals                     3,215        459            433        26      2        13        7        4

* Average Daily Population in Fiscal Year 2008 as of January 14, 2008.


                                 Information on the correct detention facility for the 26 detainees
                                 sampled was not input for up to 11 days, with detainees
                                 inaccurately accounted for an average of 3.7 days in the tracking
                                 system. In one case, according to the ENFORCE database, a
                                 detainee arrived at Arizona’s Pinal County Jail on May 1, 2008,
                                 but jail and billing records indicated that the detainee was not
                                 booked-in until May 12, 2008, 11 days late.

                                 We also identified four detainees who were transferred from three
                                 different Massachusetts IGSAs to Suffolk County House of
                                 Corrections during a long holiday weekend. The four detainees
                                 were subsequently deported, yet ENFORCE had no record of their
                                 stay at Suffolk County House of Corrections from February 15,
                                 2008, to February 16, 2008.

                                 At two other facilities tested, jail records accurately indicated that
                                 three detainees were deported, yet at the time of our review,
                                 ENFORCE recorded the detainees as still being in ICE custody.
                                 For example, one detainee was deported from the Denver Contract
                                 Detention Facility in Aurora, Colorado, on June 6, 2008, but
                                 ENFORCE was not updated to reflect the detainee’s deportation by
                                 the time of our visit on June 9, 2008.

                                 Continuous knowledge of each detainee’s location is imperative to
                                 ensure the safety of the public, detention facility staff, and other
                                 detainees. If ENFORCE is not updated in a timely and accurate

                 Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                                         Page 5
______________________________________________________________________________________

                      way, family members and legal representatives could be
                      misinformed of the whereabouts of detainees. In addition, there is
                      a potential risk of improperly accounting for dangerous detainees.
                      For instance, 27% of the 26 detainees not properly tracked in
                      ENFORCE were categorized as Level 2, and 15% were
                      categorized as Level 3.

                      For some facilities, ICE’s detainee information is recorded in
                      various tracking systems, including log books, Excel spreadsheets,
                      contractor records, and locally developed systems, created as an
                      alternative to the Deportable Alien Control System. The
                      information was considered more easily accessible and reliable in
                      the locally developed tracking systems than in the Deportable
                      Alien Control System. Although these alternative systems were
                      designed to better track detainees, they inadvertently caused more
                      work than necessary. For example, ICE staff interviewed at one
                      IGSA facility used a locally developed system to augment
                      Deportable Alien Control System entries. When ICE moved a
                      detainee from one facility to another, an ICE official was
                      responsible for updating three tracking systems with the same
                      information. With the institution of ENFORCE, locally developed
                      tracking systems should be eliminated.

                      Reliable information is critical for informed decision making and
                      effective management oversight. In turn, increased management
                      oversight would greatly enhance ICE’s ability to meet detainee
                      tracking requirements, identify emerging tracking issues, and
                      assess the success of the overall detainee-tracking process. ICE
                      can better administer its management oversight by implementing
                      internal controls to strengthen the effectiveness of its tracking
                      process.

Transfer Notification Procedures Should Be Improved
                      According to the National Detention Standard for Detainee
                      Transfers, ICE is responsible for notifying a detainee, immediately
                      prior to leaving the facility, of his or her new facility. A Detainee
                      Transfer Notification form must include the new facility name,
                      address, and telephone number. Also, the form advises the
                      detainees of their responsibility to notify family members of their
                      transfers. (See Appendix D for an example of a Detainee Transfer
                      Notification form.) According to the Detainee Transfer Standard,
                      the form should be given to the detainee at the time of transfer to
                      the new facility. For security purposes, the specific plans and time
                      schedules for transfers are not discussed with the detainee. A copy


         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                          Page 6
______________________________________________________________________________________

                          of the transfer notification should be maintained in the detainee’s
                          detention file.

                          In FY 2007, ICE transferred 261,910 detainees because of
                          specialized medical needs, requested changes of venue by the
                          Executive Office of Immigration, recreational needs when a
                          required recreation was not available, or security purposes. ICE
                          staff at the five locations visited did not properly complete the
                          Detainee Transfer Notification form for 143 of the 144 transfers
                          we tested.2 Interviews revealed that some ICE staff were not
                          aware of transfer procedures required by the Detainee Transfer
                          Standard. For example, ICE staff interviewed at one site visited
                          were not aware that the Detainee Transfer Notification form was
                          required until the facility began using the form in March 2008.
                          Testing at this facility after March 2008 revealed the Detainee
                          Transfer Notification forms were not used.

                          ICE management at the sites visited had conflicting opinions on
                          where the Detainee Transfer Notification forms should be stored
                          and when they should be used. Contrary to the Detainee Transfer
                          Standard, management officials at the five facilities said the forms
                          should be placed in the detainees’ Alien File.3 We tested available
                          Alien Files at the five facilities and did not locate any Detainee
                          Transfer Notification forms.

                          ICE staff interviewed considered the Detainee Transfer
                          Notification form a low priority. Safety considerations involved
                          with transferring detainees are overriding. ICE management at one
                          site visited considered the Detainee Transfer Notification form
                          unnecessary if a detainee was being transferred to a new location
                          to be deported, although the Detainee Transfer Standard does not
                          indicate such exceptions. For example, ICE transferred a detainee
                          from Pinal County Jail in Florence, Arizona to Los Angeles,
                          California on May 28, 2008. ICE then deported the detainee from
                          Los Angeles, California on May 29, 2008, but a Detainee Transfer
                          Notification form was not documented.

                          Further, according to the National Detention Standard for Detainee
                          Transfer, when a detainee has legal representation, ICE is required
                          to notify the representative of record that the detainee is being

2
  The OIG exempted transfers between the Florence Service Processing Center and the Pinal County Jail
from this test because ICE does not consider detainee movements between these facilities, located on the
same campus, as transfers.
3
  The detainee’s Alien File is the record that contains copies of information regarding all transactions
involving an individual as he or she passes through the immigration and inspection process. The Alien File
accompanies the detainee as they move through the immigration process.

           Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                                 Page 7
______________________________________________________________________________________

                      transferred. This notification should be recorded in the detainee’s
                      Alien File. ICE staff interviewed at the sites visited said they did
                      not notify the detainee’s legal representative because they
                      considered the notifications to be the detainee’s responsibility.
                      Developing a screen in ENFORCE to identify legal representatives
                      would facilitate compliance with legal representative notification
                      procedures.

                      It is important to the detainee population that ICE prepare Detainee
                      Transfer Notification forms so that a detainee will know the name,
                      address, and telephone number of the new facility and be able to
                      advise family members and/or legal counsel who wish to visit.
                      Detainees may be transferred anywhere in the United States,
                      depending on a facility’s space availability. Failure to adhere to
                      transfer notification procedures could create confusion for family
                      members and legal representatives regarding the whereabouts of
                      the detainee.

                      ICE conducts inspections to determine overall compliance with the
                      National Detention Standards, including the Detainee Transfer
                      Standard. Inspection reports for the five following facilities that
                      we tested inaccurately reported these facilities as compliant in
                      using the Detainee Transfer Notification form:

                             1.	 Suffolk County House of Corrections (Boston, MA) –
                                 Inspection report from June 6-8, 2007, conducted by
                                 two ICE staff.
                             2.	 Krome Service Processing Center (Miami, FL) –
                                 Inspection report from April 17-19, 2007, conducted by
                                 four ICE staff, and inspection report from April 22-24,
                                 2008, conducted by Creative Corrections.
                             3.	 Eloy Detention Facility (Eloy, AZ) – Inspection report
                                 from February 19-21, 2008, conducted by Creative
                                 Corrections.
                             4.	 Pinal County Jail (Florence, AZ) – Inspection report
                                 from August 7-9, 2007, conducted by two ICE staff.
                             5.	 Denver Contract Detention Facility (Aurora, CO) –
                                 Inspection report from October 2-4, 2007, conducted by
                                 Creative Corrections.

                      We noted a similar finding regarding annual inspections in our
                      May 2008 report, ICE Policies Related to Detainee Deaths and the
                      Oversight of Immigration Detention Facilities (OIG-08-52).
                      Although these inspections are a risk management tool and only
                      show a snapshot of the facility, each inspection reported that
                      transfer notification forms were reviewed and had no problems.

         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                          Page 8
______________________________________________________________________________________

                       Inadequate management oversight decreases ICE's ability to ensure
                       that facilities are complying with ICE National Detention
                       Standards.

Medical Screenings and Physical Examinations Are Not Always Timely
                       According to the National Detention Standard for Medical Care,
                       detainees are required to receive an initial medical screening
                       within 24 hours of arrival and a physical examination within 14
                       days after arrival. Initial medical screenings should include
                       observation and interview questions related to a detainee’s physical
                       well-being, potential suicide risk, and possible mental disabilities,
                       including mental illness and mental retardation. New arrivals
                       should receive a tuberculosis test as part of the medical screening
                       to prevent the spread of this communicable disease.

                             Table 2: Medical Evaluations Timeliness Discrepancies
                                                 Medical Screening        Physical Exam Within 14
                                                  Within 24 Hours                   Days
                        Facility
                                                    NonȬ          Sampleȱ        NonȬ             Sampleȱ
                                                  Complianceȱ      Sizeȱ       Complianceȱ         ȱSizeȱ
         Suffolk County House of Corrections            5            34             16              34
         (IGSA)
         Boston, MA
         Krome Service Processing Center                2            97             1               75
         Miami, FL
         Eloy Detention Facility (IGSA)                 3            92             28              77
         Eloy, AZ
         Pinal County Jail (IGSA)                       0           100             9               62
         Florence, AZ *
         Denver Contract Detention Facility             1            97             10              64
         Aurora, CO
                                                        11          420             64              312
                         Totals
                                                             3%                            20%
         * Note: The OIG accepted medical screenings completed at the Florence Service Processing Center if
         they were performed within 24 hours of arrival, because of its proximity to the Pinal County Jail.


                       As shown in Table 2, medical staff at detention facilities did not
                       always provide initial medical screenings in a timely manner. In
                       some instances, detainees did not receive a medical screening or
                       there were delays between the date of arrival and the date a
                       clinician conducted the screenings. Of the 11 instances of non­
                       compliance with medical screenings, 3 detainees received a
                       medical screening after the 24 hour requirement, and 8 detainees
                       did not receive a medical screening at all or did not receive an
                       updated screening when they were rebooked into the facility.
                       Medical staff conducted the screenings from 1 to 12 days late. In

         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                               Page 9
______________________________________________________________________________________

                      one instance, a detainee with a book-in date of December 14, 2007,
                      did not receive an initial medical screening until December 27,
                      2007.

                      Some facilities did not conduct initial screenings during busy
                      detainee book-in periods. In one case, a medical facility was not
                      fully staffed to process a daily average of up to 90 arriving
                      detainees. Officials at this facility said that medical staffing was at
                      times 50%. As of June 2008, it was staffed at 80%. Because of
                      staff shortages, detainees did not always receive timely medical
                      screenings. For example, one detainee arrived at this facility on
                      January 14, 2008, and received no initial medical screening.
                      Additionally, the detainee did receive a physical examination until
                      March 1, 2008, which was 32 days late. Noncompliance with the
                      timeliness of medical evaluations can result in treatable illnesses
                      going undetected and the spread of infectious diseases inside
                      detention facilities. To ensure that medical evaluations are
                      conducted on time, medical facilities must be fully staffed and
                      ready to handle high influxes of detainees.

                      In addition, health care providers at each facility are required to
                      conduct a physical examination within 14 days of a detainee’s
                      arrival. The physical examination allows for early detection and
                      treatment of diseases and disorders. If there is documented
                      evidence of a physical examination within the previous 90 days,
                      the facility health care provider may determine that a new physical
                      is not required. Four of the five facilities we visited had difficulty
                      meeting ICE’s physical examination timeliness requirement.

                      As illustrated in Table 2, we determined that 64 (20%) of 312
                      detainees requiring a physical examination did not receive an exam
                      within the 14-day requirement or did not receive one at all.
                      Specifically, 43 (67%) of the 64 detainees sampled received
                      physicals between 1 and 236 days late for an average of 56 days
                      late, and 21 (33%) of 64 detainees did not receive a physical
                      examination at all.

                      Based on our review, hard-copy medical records can be unreliable.
                      Medical staff interviewed at one ICE facility provided medical
                      records in hardcopy form, but we were unable to determine if the
                      medical screenings were performed timely because the dates
                      appeared to be crossed out and changed. In contrast, Krome
                      Service Processing Center used an electronic case management
                      system and had significantly fewer delays in providing medical
                      evaluations. The electronic system calculated the days a detainee
                      was in custody and generated a reminder for medical staff when a

         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                          Page 10
______________________________________________________________________________________

                      detainee’s 14-day physical was due. Instituting an electronic case
                      management system at detention facilities could improve internal
                      controls, decrease medical care timeliness issues, and offer a more
                      accessible and effective method of record keeping nationwide.

                      Generally, most of the facilities sampled complied with preparing
                      medical transfer summaries. The Detainee Transfer Standard
                      requires that when a detainee is transferred within the Detainee
                      Immigration Health Service System, a medical transfer summary
                      and an official health record should accompany the detainee.
                      Medical transfer summaries are essential for a detainee’s safety
                      while in transit because they contain the detainee’s current
                      physical and mental status and current medications with
                      instructions. Such information also aids the receiving facility in
                      processing medical screenings.

                      Sometimes the receiving medical staff interviewed did not have
                      access to detainees’ medical transfer summaries, which resulted in
                      excess work for the medical staff. For example, in one receiving
                      detention facility, the staff interviewed had to re-do the medical
                      history part of the initial medical screening process. ICE should
                      conduct a survey to identify other facilities that have similar
                      problems accessing medical transfer summaries.

                      Overall, timely medical screenings and physical examinations are
                      an important part of ICE medical care procedures. As previously
                      stated, noncompliance with the Medical Care standard can result in
                      a higher incidence of untreated or undiagnosed illnesses and
                      promote the spread of infectious diseases. The ICE Medical Care
                      standard recognizes the need to perform timely evaluations, yet
                      oversight to ensure compliance is not always effective.

                      For example, an ICE inspection report inaccurately gave one
                      facility reviewed in 2007 an acceptable rating for the Medical Care
                      standard. The inspection report gave acceptable ratings to portions
                      of the report asking if physical examinations were performed
                      within 14 days of detainee arrivals and if all detainees received
                      mental health screenings upon arrival. During our testing, physical
                      examinations and medical screenings at this facility were not
                      always performed timely. ICE annual facility inspection reports
                      did not identify noncompliance with the Medical Care standard in
                      three of the five facilities we reviewed. By implementing internal
                      controls to ensure compliance, ICE can improve the timeliness of
                      health care provided to detainees.



         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                         Page 11
______________________________________________________________________________________

Recommendations
                      We recommend that the Assistant Secretary for Immigration and
                      Customs Enforcement:

                      Recommendation #1: Conduct a best practices study to
                      determine how to improve ENFORCE data entry and distribute the
                      results to all facilities.

                      Recommendation #2: Eliminate the use of locally developed ICE
                      detainee tracking systems in lieu of ENFORCE.

                      Recommendation #3: Issue specific guidance outlining the
                      proper use of the Detainee Transfer Notification form and develop
                      procedures to hold appropriate management accountable for its
                      use.

                      Recommendation #4: Develop and implement internal controls to
                      improve management oversight of the annual facility inspection
                      process to ensure that if standards are not followed at a facility, the
                      non-compliance is documented in the inspection report.

                      Recommendation #5: Develop procedures to ensure that legal
                      representative notifications are made as required. Also, develop a
                      screen in ENFORCE to include information about the detainee’s
                      representative of record to facilitate the attorney notification
                      process.

                      Recommendation #6: Implement internal controls to ensure that
                      detention facilities comply with the National Detention Standard
                      for Medical Care regarding the timeliness of initial medical
                      screenings and physical examinations. In addition, implement an
                      electronic case management system for ICE detainees to facilitate
                      timely medical evaluations.

                      Recommendation #7: Conduct a study and institute controls at
                      medical facilities to ensure that all receiving medical staff have
                      access to the medical transfer summaries.

Management Comments and OIG Analysis

              ICE concurred with four recommendations and concurred in part with
              three recommendations. We consider recommendations 2, 3, 4, and 7
              resolved and closed. We consider the remaining three recommendations
              open until ICE provides details and documentation on corrective actions

         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                          Page 12
______________________________________________________________________________________

              taken so that we can determine whether the actions adequately address the
              substance of our findings and recommendations.

              Management Comments to Recommendation #1

              ICE concurred with our recommendation regarding conducting a best
              practices study to determine how to improve ENFORCE data entry. In
              October 2008, the Detention and Removal Office restructured the
              Executive Information Unit, which is responsible for ensuring
              accountability, consistency, and efficiency in statistical reporting. A new
              sub-unit, the Data Quality and Integrity Unit, will: (1) coordinate with the
              Detention and Removal Field Offices to provide guidance and instructions
              on effective utilization of Detention and Removal Office information
              systems; (2) develop data entry policies and standard operating
              procedures; and (3) conduct audits to monitor compliance with data entry
              requirements. The Data Quality and Integrity Unit will conduct a best
              practices study to ensure that data entry is completed in an appropriate and
              timely manner.

              OIG Analysis

              We consider ICE’s proposed actions responsive to the recommendation.
              However, this recommendation will remain open until the Data Quality
              and Integrity Unit provides the completed best practices study.

              Management Comments to Recommendation #2

              ICE concurred with our recommendation regarding eliminating use of
              locally developed detainee tracking systems. However, ICE believed that
              any local tracking systems the audit team observed in use at IGSAs are
              neither in ICE’s control nor relied upon by ICE for detainee tracking.
              Rather, IGSAs likely rely upon their own internal tracking of their
              detained populations. ICE will issue a policy memorandum stating that
              transfer, book-in, and book-out data must be entered within a reasonable
              time frame into the ENFORCE Alien Detention Module, and that
              ENFORCE and its components are the exclusive system of record for
              detainee tracking. This memo will replace the February 1, 2007,
              memorandum regarding data entry in the retired Deportable Alien Control
              System.

              OIG Analysis

              ICE issued a memorandum on February 12, 2009, eliminating the use of
              locally developed ICE detainee tracking systems in lieu of ENFORCE.
              We consider this recommendation closed.


         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                         Page 13
______________________________________________________________________________________

              Management Comments to Recommendation #3

              ICE concurred with our recommendation regarding issuing guidance
              outlining the proper use of the Detainee Transfer Notification form and
              stated that ICE’s standard operating procedures require that Detainee
              Transfer Notification forms be placed in the detainee files, including the
              Alien File. While proper use of the Detainee Transfer Notification forms
              is already mandated and is part of standard training, ICE will issue a
              reminder to field officers of this requirement. All employees, including
              management, are accountable for following these standard operating
              procedures.

              OIG Analysis

              ICE issued a memorandum on January 15, 2009, reminding field officers
              of their ongoing obligation with regard to Detainee Transfer Notification
              forms. We consider this recommendation closed.

              Management Comments to Recommendation #4

              ICE concurred in part with our recommendation to develop and implement
              internal controls to improve management oversight of the annual facility
              inspection process and stated that effective management oversight is
              critical to meeting ICE’s detention mission. ICE has contracted with the
              Nakamoto Group to provide on-site verification of compliance with the
              National Detention Standards and the new Performance-Based National
              Detention Standards for all ICE detention facilities. ICE has also
              contracted with Creative Corrections to conduct annual inspections of all
              detention facilities that house ICE detainees. By using third party
              reviewers, ICE will be able to objectively measure the performance of all
              facilities housing detainees. As part of the Detention and Removal
              Office’s yearly assessment, scheduled to take place in the second quarter
              of FY 2009, ICE will look for ways to continue to improve management
              oversight of the annual inspection process at the agency’s detention
              facilities.

              OIG Analysis

              ICE has proposed actions responsive to the recommendation by
              developing and implementing internal controls to improve management
              oversight of its annual inspection process. We consider this
              recommendation closed.




         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                         Page 14
______________________________________________________________________________________

              Management Comments to Recommendation #5

              ICE concurred with our recommendation to develop procedures to ensure
              that legal representative notifications are made and stated that prompt
              notification of legal representatives is imperative to facilitate ongoing
              attorney client communication. The new National Detention Standards
              provide that an alien’s legal representative of record must be notified as
              soon as practicable, but no later than 24 hours after a detainee has been
              transferred to a new detention location. Currently, ENFORCE Alien
              Removal Module contains a screen listing the alien’s attorney of record
              and contact information. As part of an upgrade review, ICE will look at
              the feasibility of integrating this data with the ENFORCE Alien Detention
              Module so that officers are prompted to contact legal representatives of
              record when transfers, book-ins, and book-outs take place.

              OIG Analysis

              We consider ICE’s proposed actions responsive to the recommendation.
              However, the recommendation will remain open until ICE provides
              evidence of steps taken to ensure that legal representative notifications are
              made.

              Management Comments to Recommendation #6

              ICE concurred in part with our recommendation to implement internal
              controls to ensure that detention facilities comply with National Detention
              Standards for Medical Care and stated that it is committed to improving
              efficiency in providing initial health screenings and 14 day health
              appraisals to detainees. Facilities that do not meet these standards, as
              identified through the annual inspection process, are rated as deficient and
              are required to take corrective action. Implementation of the recently
              issued National Detention Standards started on October 1, 2008, and will
              be completed by January 1, 2010. By July 1, 2010, all detention facilities
              will be evaluated against the new National Detention Standards. As part
              of this process, ICE will examine control activities that can be
              implemented to ensure its facilities are meeting the detention standards.

              With regard to the second part of the recommendation, ICE stated it has
              begun exploring the possibility of adopting an electronic health record
              system.

              OIG Analysis

              We consider ICE’s proposed actions responsive to the recommendation.
              However, the recommendation will remain open until ICE provides
              evidence that it has instituted controls to ensure that medical evaluations

         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                         Page 15
______________________________________________________________________________________

              are timely. With regard to the second part of the recommendation, we
              believe ICE should implement an electronic case management system at
              its service processing centers and contract detention facilities because it
              could improve internal controls, decrease medical care timeliness issues,
              and offer a more accessible and effective method of record keeping
              nationwide.

              Management Comments to Recommendation #7

              ICE concurred in part with our recommendation regarding conducting a
              study and instituting controls to ensure medical staff have access to
              medical transfer summaries and stated that such control activities are
              essential to providing efficient medical care. ICE stated that because a
              survey would have limited effect in ameliorating these inefficiencies, it
              will instead issue memoranda to all Detention and Removal Office and
              Department of Immigration Health Services personnel involved in
              detainee management reminding them of proper use, handling, and
              delivery of all medical records during ICE detainee transfers

              OIG Analysis

              ICE issued memoranda on December 22, 2008, to the Detention and
              Removal Office and the Department of Immigration Health Services
              reminding personnel of the proper use, handling, and delivery of medical
              records during transfers of ICE detainees. We consider this
              recommendation closed.




         Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                         Page 16
Appendix A
Purpose, Scope, and Methodology


                     Our objectives were to determine to what extent the agency has:
                     (1) improved its ability to track and monitor detainees; (2) properly
                     notified detainees of transfers; and (3) provided detainees with
                     timely initial medical screenings and physical examinations.

                     We conducted field work at ICE headquarters in Washington, DC,
                     and site visits to five ICE detention facilities: (1) Suffolk County
                     House of Corrections, Boston, Massachusetts; (2) Krome Service
                     Processing Center, Miami, Florida; (3) Eloy Detention Facility,
                     Eloy, Arizona; (4) Pinal County Jail, Florence, Arizona; and (5)
                     Denver Contract Detention Facility, Aurora, Colorado.

                     We interviewed personnel at all ICE locations visited. We
                     reviewed detention files, medical records, Alien Files, and polices
                     and procedures related to ICE, including the National Detention
                     Standards, Detention Removal Operations Policies and Procedures
                     Manual, Division of Immigration and Health Services Health
                     Records Standard, and the ENFORCE Detention Module Instructor
                     Guide. We also reviewed prior DHS OIG audit and inspection
                     reports and Government Accountability Office reports.

                     The ICE detention system consists of more than 400 local and state
                     facilities under IGSAs, seven Service Processing Centers, and
                     seven Contract Detention Facilities. We chose to visit facilities of
                     various types, sizes, and locations across the United States. In
                     addition, we considered the number of transfers at detention
                     facilities when selecting our sites. We judgmentally selected five
                     sites from the Deportable Alien Control System for testing using
                     the following criteria:

                         �	 Suffolk County House of Correction, IGSA, in Boston,
                            Massachusetts, because of its small size (average daily
                            population of 245 detainees);
                         �	 Krome Service Processing Center in Miami, Florida,
                            because it was a medium-sized Service Processing Center
                            (average daily population of 646) and because it was
                            ranked as the fifth highest in detainee transfers from
                            October 2007 through January 2008;
                         �	 Eloy Detention Facility, IGSA, in Eloy, Arizona, because
                            of its large size (average daily population of 1,468);
                         �	 Pinal County Jail, IGSA, in Florence, Arizona, (average
                            daily population of 449) because of its proximity to the


        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                        Page 17
Appendix A
Purpose, Scope, and Methodology

                            Eloy Detention Facility in Eloy, Arizona, and for its high
                            detainee transfer rates; and
                         �	 Denver Contract Detention Facility, in Aurora, Colorado,
                            because it was a medium sized contract facility (average
                            daily population of 407).

                     ICE Boston provided the detainee universe from its locally
                     developed tracking system, which reported 271 detainees housed at
                     Suffolk County House of Correction from February 16, 2008,
                     through February 18, 2008. From this universe, we randomly and
                     judgmentally selected 55 detainees (20%) for testing; we visited
                     the facility on February 20, 2008. In addition, we visited the ICE
                     facility in Burlington, Massachusetts on February 21, 2008, March
                     13, 2008, and June 30, 2008.

                     ICE staff at the Krome Service Processing Center provided the
                     universe of detainees by extracting data from ENFORCE reports
                     for daily populations, then manipulated the data to determine the
                     net number of detainees for March 24, 2008, through March 28,
                     2008. This universe totaled 648 detainees. We randomly selected
                     100 detainees (15%) from this universe, and we visited the facility
                     from April 1-3, 2008.

                     ICE staff at Eloy Detention Facility provided monthly reports of
                     detainee populations for March 2008, April 2008, and May 2008
                     from ENFORCE; this universe totaled 2,272 detainees. We
                     randomly selected 104 (4%) for testing, and visited the facility
                     from June 2-4, 2008. Similarly, at the Pinal County Jail, ICE staff
                     provided the detainee population for May 2008, which totaled
                     1,107 detainees. We randomly selected 100 (9%) detainees for
                     testing from ENFORCE, and visited the facility from June 4-6,
                     2008.

                     Using ENFORCE, ICE staff at the Denver Contract Detention
                     Facility provided the May 2008 detainee population, which totaled
                     984 detainees, including 98 transfers. We randomly selected 50
                     transfers and 50 detainees for a total sample of 100 (10%), and we
                     visited the facility from June 9-10, 2008.

                     We relied on computer processed data in ENFORCE to achieve
                     our audit objectives. We compared ENFORCE to source data
                     maintained by the jails to verify book-in and book-out dates. Our
                     tests showed some ICE data input errors, as reported herein.
                     However, we concluded that the data generally was reliable
                     enough to support our audit findings.

        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                        Page 18
Appendix A
Purpose, Scope, and Methodology


                     We conducted our audit between January 2008 and July 2008
                     under the authority of the Inspector General Act of 1978, as
                     amended, and according to generally accepted government
                     auditing standards. Those standards require that we plan and
                     perform the audit to obtain sufficient, appropriate evidence to
                     provide a reasonable basis for our findings and conclusions based
                     on our audit objectives. We believe that we met these standards.

                     We would like to thank the Immigration and Customs Enforcement
                     Agency for their cooperation and courtesies extended to our staff
                     during this review.




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees

                                        Page 19
Appendix B
Management Comments to the Draft Report




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees 


                                         Page 20 

Appendix B
Management Comments to the Draft Report




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees


                                         Page 21 

Appendix B
Management Comments to the Draft Report




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees


                                         Page 22 

Appendix B
Management Comments to the Draft Report




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees


                                         Page 23 

Appendix B
Management Comments to the Draft Report




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees


                                         Page 24 

Appendix B
Management Comments to the Draft Report




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees


                                         Page 25 

Appendix C
Data Entry into the Deportable Alien Control System




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees 


                                         Page 26 

Appendix D
Detainee Transfer Notification Form




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees 


                                         Page 27 

Appendix E
Major Contributors to this Report

                     Washington, D.C. Office

                     Richard T. Johnson,

                     Director, Immigration and Customs Enforcement Division           


                     Boston, MA, Field Office

                     Maureen Duddy, Auditor Manager
                     Colin Sullivan, Auditor-in-Charge
                     Lindsey Cabral, Auditor
                     Paul Exarchos, Program Analyst
                     Jeanne Genao, Program Analyst




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees 


                                         Page 28 

Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Acting Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Acting Assistant Secretary for ICE
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Audit Liaison for ICE

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




        Immigration and Customs Enforcement’s Tracking and Transfers of Detainees 


                                         Page 29

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
